No.

In the Supreme Court of the United States
___________

VIRGIL BREWER,
Petitioner,
v.
KRISTINA MYERS, individually, and as administrator
of the Estate of Steven P. Myers, and as natural parent and legal guardian of K.D.M., C.F.M. and K.J.M.,
minors,
Respondent.
___________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
___________
Petition for a Writ of Certiorari
___________
David R. Cooper
Counsel of Record
Fisher Patterson Sayler
& Smith LLP
3550 SW 5th Street
Topeka, Kansas 66606
Telephone: (785) 232-7761
dcooper@fisherpatterson.com
Counsel for Petitioner

Questions Presented
While conducting a house-to-house search for a suspect who had threatened people in a bar with a shotgun after being thrown out of that bar for fighting, the
suspect was found hiding in a shed behind a house.
The suspect—not complying with commands to put his
hands up and get on the ground and while shouting
and being belligerent—advanced half the distance
from the shed towards Petitioner Brewer who fired a
beanbag round at the suspect, which caused the suspect’s death. Before denying qualified immunity to an
officer, this Court requires that existing precedent
place the “constitutional question beyond debate.”
Ashcroft v. al–Kidd, 563 U.S. 731, 741 (2011). The
questions presented are:
Question 1: Whether there is a clearly established
right not to be shot with a less than lethal beanbag
projectile at close range.
Question 2: Whether a court of appeals is free to
ignore the facts shown in video and considered by the
district court on a motion to dismiss.
Question 3: Whether the courts below addressed
the issue of qualified immunity and clearly established
law at too high a level of generality contrary to this
Court’s instruction in Kisela v. Hughes, 138 S.Ct. 1148
(2018), White v. Pauly, 137 S.Ct. 548 (2017), and Ashcroft v. al-Kidd, 563 U.S. 731.

ii
Parties to the Proceedings
Petitioner, Virgil “Dusty” Brewer, was defendant–
appellant in the court below.
Respondent, Kristina Myers, was the plaintiff–appellee in the court below.
Lonnie Small, individually and in his official capacity as Sheriff of Barber County, Kansas, is not a party
in this Court or in the Tenth Circuit but was a defendant in the district court below.
Corporate Disclosure Statement
There are no corporations involved in this proceeding.
List of Proceedings
United States District Court for the District of Kansas, Case No. 17-2682-CA-JPO, Kristina Myers, individually, and as administrator of the Estate of Steven
P. Myers, and as natural parent and legal guardian of
K.D.M., C.F.M. and K.J.M., minors, Plaintiff - Appellee, v. Virgil Brewer, individually and in his official capacity as Undersheriff of Barber County, Kansas, and
Lonnie Small, individually and in his official capacity
as Sheriff of Barber County, Kansas, Defendants, Order Appealed from Filed July 27, 2018.
Tenth Circuit Court of Appeals, Appeal No.
18-3145, Kristina MYERS, individually, and as administrator of the Estate of Steven P. Myers, and as
natural parent and legal guardian of K.D.M., C.F.M.
and K.J.M., minors, Plaintiff - Appellee, v. Virgil
Brewer, individually and in his official capacity as Undersheriff of Barber County, Kansas, Defendant - Appellant, and Lonnie Small, individually and in his of-

iii
ficial capacity as Sheriff of Barber County, Kansas, Defendant., Order and Judgment filed July 24, 2019, Petition for Rehearing and Rehearing En Banc denied
August 22, 2019.

iv
Table of Contents
Questions Presented ..................................................... i
Parties to the Proceedings ........................................... ii
Corporate Disclosure Statement ................................. ii
List of Proceedings ....................................................... ii
Table of Contents ........................................................ iv
Table of Authorities .................................................... vi
Opinions Below ............................................................ 1
Jurisdiction .................................................................. 1
Constitutional & Statutory Provisions Involved ........ 1
Statement of the Case ................................................. 2
A. Factual Background ............................................... 2
1. Facts Alleged in the Complaint and Facts
Shown in Video which Blatantly Contradict the
Allegations in the Complaint. ........................... 2
2. Facts Found by the District Court Based Upon
the Facts Shown in Video. ................................ 2
B. Procedural Background .......................................... 4
Reasons to Grant the Petition ..................................... 6
A. Review is warranted because there is no clearly
established “right not to be shot with a high-speed
projectile (even a less-lethal one) at close range
when unarmed and making no apparent move to
attack an officer or bystander.” Existing precedent
does not place the question of whether Petitioner
acted unreasonably “beyond debate.” .................... 7

v
1. The Tenth Circuit ignored the facts shown by
the video and considered by the district court,
which blatantly contradicted the allegations in
the complaint..................................................... 9
2. Under the first Graham factor, Myers’ crimes
were severe. ..................................................... 11
3. Under the third Graham factor, Myers was
actively resisting arrest. ................................. 12
4. The right identified by the district court is not
clearly established and no existing precedent
places the constitutional question beyond
debate. ............................................................. 14
Conclusion .................................................................. 21
Appendix A — Court of Appeals opinion (Jul. 14, 2019)
............................................................................... 1a
Appendix B — District Court memorandum and order
(June 27, 2018) ................................................... 11a
Appendix C — Order denying rehearing (Aug. 22,
2019).................................................................... 35a

vi
Table of Authorities
Cases
Apodaca v. Raemisch, 864 F.3d 1071,(10th Cir. 2017),
cert. denied, 139 S.Ct. 5 (2018) ....................... 20
Archuleta v. McShan, 897 F.2d 495 (10th Cir. 1990) . 8
Ashcroft v. al–Kidd, 563 U.S. 731 (2011) .................. 14
Bell v. Wolfish, 441 U.S. 520 (1979) ............................ 7
Estate of Ceballos v. Husk, 919 F.3d 1204 (10th Cir.
2019) ................................................................ 13
Estate of Larsen ex rel. Sturdivan v. Murr, 511 F.3d
1255 (10th Cir. 2008) ............................ 8, 13, 17
Graham v. Connor, 490 U.S. 386 (1989) . 6, 7, 8, 11, 14
Illinois v. Lafayette, 462 U.S. 640 (1983) .................. 14
Jiron v. City of Lakewood, 392 F.3d 410 (10th Cir.
2004) .................................................................. 8
Kisela v. Hughes, 138 S.Ct. 1148 (2018) ................... 16
Loch v. City of Litchfield, 689 F.3d 961 (8th Cir. 2012)
......................................................................... 20
Manis v. Lawson, 585 F.3d 839 (5th Cir. 2009) ........ 18
McCoy v. Meyers, 887 F.3d 1034 (10th Cir. 2018) .... 12
Montoute v. Carr, 114 F.3d 181 (11th Cir. 1997)...... 18
Morris v. Noe, 672 F.3d 1185 (10th Cir. 2012) ... 16, 17
Mullenix v. Luna, 136 S.Ct. 305 (2015) .................... 15
Mullins v. Cyranek, 805 F.3d 760 (6th Cir. 2015) ........
................................................................... 18, 19
Pauly v. White, 874 F.3d 1197 (10th Cir. 2017) .......... 8
Plumhoff v. Rickard, 134 S.Ct. 2012 (2014) ............... 6

vii
Quiles v. City of Tampa Police Dep’t, 596 Fed.Appx.
816 (11th Cir. 2015) (unpublished) .......... 19, 20
Saucier v. Katz, 533 U.S. 194 (2001) ................... 14, 15
Scott v. Harris, 550 U.S. 372 (2007)...... 7, 9, 10, 13, 18
Smith v. City of Hemet, 394 F.3d 689 (9th Cir. 2005)
......................................................................... 18
Thomson v. Salt Lake Cnty., 584 F.3d 1304 (10th Cir.
2009) ................................................................ 17
White v. Pauly, 137 S.Ct. 548 (2017) ......................... 16
Wilson v. Meeks, 52 F.3d 1547 (10th Cir. 1995) ....... 17
Statutes
42 U.S.C. § 1983........................................................... 1
Kan. Stat. Ann. § 21-5412 ................................... 11, 12
Kan. Stat. Ann. § 21-5904 ......................................... 12
Kan. Stat. Ann. § 21-5904 ......................................... 11
Rules
Fed. R. Civ. P. 10 ..................................................... 7, 9
Other Authorities
5A Federal Practice & Procedure § 1327 (4th ed.) .......
................................................................. 7, 9, 10

1
Opinions Below
The opinion of the court of appeals (Pet. App. 1a–
9a) is reported at 773 Fed.Appx. 1032 (10th Cir. July
24, 2019). The district court’s memorandum and order
(Pet. App. 10a–31a) is unpublished but is available at
2018 WL 3145401.
Jurisdiction
The judgment of the court of appeals was entered
on July 24, 2019. A petition for rehearing was denied
on August 22, 2019 (Pet. App. 32a). This Court’s jurisdiction rests on 28 U.S.C. § 1254(1).
Constitutional & Statutory Provisions Involved
Respondents claim Petitioner violated rights under
the Fourth Amendment to the United States Constitution which provides: “The right of the people to be secure in their persons … against unreasonable searches
and seizures shall not be violated.”
This action was brought pursuant to 42 U.S.C.
§ 1983 which states:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State … subjects, or causes to be subjected, any
citizen of the United States or other person
within the jurisdiction thereof to the deprivation of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the party injured in an action at law.

2
Statement of the Case
A. Factual Background
1. Facts Alleged in the Complaint and Facts
Shown in Video which Blatantly Contradict the Allegations in the Complaint.
The district court drew the facts from the complaint
and considered the video recordings referenced in, and
central to, the complaint. Pet. App. 12a. The district
court noted that it need not view the facts in the light
most favorable to the non-moving party if non-moving
party’s version of the facts are plainly contradicted by
video. Id. (citing Scott v. Harris, 550 U.S. 372, 380
(2007)). Thus, to the extent the allegations in the complaint were blatantly contradicted by the videos, the
district court considered the videos instead of the factual allegations in the complaint. Id. at 13a.
2. Facts Found by the District Court Based
Upon the Facts Shown in Video.
Petitioner is the Undersheriff of Barber County,
Kansas; Respondent, Kristina Myers, is the heir and
personal representative of the estate of decedent, Steven Myers, and next friend to his heirs and minor children. Pet. App. 10a.
On October 6, 2017, Petitioner and other law enforcement officers responded to a 911 call reporting
that Steven Myers was threatening people with a shotgun in the street in front of a bar in Sun City, Kansas.
Pet. App. 13a. The caller said Myers was drunk and
had been thrown out of the bar for fighting. Id. at 13a–
14a. Petitioner Brewer and three other officers from
Barber County responded but none were nearby. Myers left the area by the time the officers arrived. Id. at

3
14a. Unbeknownst to the officers, Myers had returned
home, put away the shotgun, and had taken his dog for
a walk. Id.
When officers arrived in Sun City, about forty-one
minutes after the 911 call, they began searching
house-to-house for Myers. Id. Eventually, Barber
County Sheriff Lonnie Small spotted Myers hiding in
a shed about fifteen feet behind a home. Sheriff Small,
at the time, was in the back door of the house with a
canine and shouted for Myers to come out of the shed.
Id. at 14a. Sheriff Small immediately turned around
and led the canine toward the front door and away
from Myers. Id. Myers yelled back at Sheriff Small. Id.
Petitioner Brewer and Deputy Mark Suchy began
shouting at Myers to put his hands up and get on the
ground. Id. Myers did not comply with either command. Id. 14a, 27a–28a.
The district court found the facts, from the complaint and video, showed Brewer had information that
Myers was drunk and threatening people with a shotgun; that over forty minutes had lapsed before their
arrival; Myers was no longer in the same spot; when
Brewer encountered Myers, Myers did not obey the officers’ directions, was yelling at the officers, and was
moving closer to Petitioner Brewer in the doorway,
and was being belligerent. Id. at 27a–28a.
After about eight seconds of yelling, Petitioner
Brewer fired a beanbag round from his 12-gauge shotgun at Myers’ chest from a distance of six to eight feet.
Id. at 14a. A beanbag round is a small fabric pouch
filled with lead pellets which is intended to be a less
than lethal weapon. Id. When fired from less than ten
feet at a subject’s chest, the rounds still present risk of

4
serious injury or death. Id.
Myers went to his knees and collapsed. Id. at 15a.
CPR was administered until coroner pronounced Myers’ death. Id. at 15a–16a.
B. Procedural Background
1. Respondent sued Petitioner and Sheriff Lonnie
Small under 42 U.S.C. § 1983 asserting they were responsible in their individual and official capacities for
the death of Myers for excessive force in violation of
the Fourth Amendment. Pet. App. 10a–11a.
Both Brewer and Small moved to dismiss. Id. at
11a–12a.
The district court dismissed the individual capacity
§ 1983 claim against Sheriff Small for a lack of participation in the use of force. Id. at 20a. The official capacity claims were dismissed for lack of jurisdiction
under the Eleventh Amendment. Id. at 24a. The court
also declined jurisdiction over any state law claims. Id.
at 25a, 31a.
The district court denied qualified immunity to Petitioner Brewer, finding the “right not to be shot with
a high-speed projectile (even a less-lethal one) at close
range when unarmed and making no apparent move
to attack an officer or bystander” to be clearly established such that plaintiff has adequately alleged
Brewer violated this right. Id. at 30a.
Petitioner Brewer appealed the denial of qualified
immunity to the United States Court of Appeals for the
Tenth Circuit.
2. The Tenth Circuit affirmed the denial of qualified immunity to Petitioner Brewer. The Tenth Circuit
incorrectly stated the video does not clearly contradict

5
the allegations in the complaint, Pet. App. 5a, as the
district court stated—the facts shown by the video blatantly contradicted the allegations in the complaint.
The Tenth Circuit credited the suggestion that Myers was not actively resisting arrest or attempting to
evade arrest—despite the fact he was hiding in a shed
behind another person’s house and was not complying
with officer commands to get on the ground and raise
his hands. Pet. App. 14a.
The Tenth Circuit also credited the allegation in
the complaint that Myers was shot with a beanbag
round as he “stood in the yard, with empty hands at
his sides” and “did not threaten the officers, brandish
a weapon, or attempt to escape,” Pet. App. 7a, despite
the district court’s determination from the video that
Myers was shouting at the deputies, was being belligerent, did not comply with the commands to raise his
hands and get on the ground, and was moving toward
the house and closer to within just a few feet of Brewer
standing in the doorway of the house. Id. at 14a, 27a–
28a.
Moreover, the Tenth Circuit posited that Myers
“had committed no crime,” id. at 8a, despite the district court’s conclusions from the video and audio that
Myers had threatened people with a shotgun in the
street in front of a bar after he had been thrown out of
the bar for fighting and was not complying with the
commands of the officers. Id. at 13a–14a, 27a–28a.
The Tenth Circuit noted Myers “possessed no
weapon,” id., at 8a, despite the district court’s conclusion that officers had been informed Myers was armed
with a shotgun and did not know he had put the gun
away in his home. Id. at 14a.

6
The Tenth Circuit said it was “clearly established
that an officer uses excessive force when he executes a
forceful takedown of a subject who at most was a misdemeanant, but otherwise posed no threat and did not
resist arrest or flee.” Id. at 8a (citing Morris v. Noe, 672
F.3d 1185, 1198 (10th Cir. 2012)). The court also said
it was “clearly established that an officer uses excessive force when he shoots a subject who possessed a
knife and took three steps toward the officer from a
distance of some five to ten feet but otherwise made no
threatening motion.” Id. at 8a (citing Tenorio v. Pitzer,
802 F.3d 1160, 1165–66 (10th Cir. 2015) and Zuchel v.
City & County of Denver, 997 F.2d 730, 735 (10th Cir.
1993)). Based on Zuchel, Tenorio, and Morris the
Tenth Circuit concluded it was “clearly established
that the use of force under the circumstances confronted by Undersheriff Brewer here was not objectively reasonable” and affirmed the denial of qualified
immunity. Id. at 9a.
Reasons to Grant the Petition
Law enforcement officers, when dealing with offenders and calls for service, must assess issues of officer safety and the protection of the general public
within the confines of the Fourth Amendment. This
Court has long required courts to apply an objective
test when assessing the reasonableness of a particular
use of force and requires a court to carefully balance
the “nature and quality of the intrusion on the individual’s Fourth Amendment interests against the countervailing governmental interests at stake.” Graham
v. Connor, 490 U.S. 386, 395–96 (1989) (internal quotation marks omitted); see also Plumhoff v. Rickard,
134 S.Ct. 2012, 2020 (2014). This test of reasonableness “is not capable of precise definition or mechanical

7
application,” Bell v. Wolfish, 441 U.S. 520, 559 (1979),
and no precise or “rigid preconditions” exist for determining when an officer’s use of force is excessive and,
therefore, unreasonable under the Fourth Amendment. Scott v. Harris, 550 U.S. 372, 382 (2007) .
It matters not whether a particular action constituted an application of “deadly” force because “all that
matters” to address the constitutional question is
whether the officer’s “actions were reasonable.” Id. at
383. Moreover, where the allegations in a complaint
are blatantly contradicted by video referenced in the
complaint and properly considered by the district on a
motion to dismiss, an appeals court should not adopt
the version of facts alleged in the complaint. Id. at 380;
see also Fed.R.Civ.P. 10(c), and 5A Federal Practice &
Procedure § 1327 (4th ed.).
A. Review is warranted because there is no
clearly established “right not to be shot with
a high-speed projectile (even a less-lethal
one) at close range when unarmed and making no apparent move to attack an officer or
bystander.” Existing precedent does not
place the question of whether Petitioner
acted unreasonably “beyond debate.”
The Tenth Circuit’s decision below diverges from
its own jurisprudence, and that of this Court, and
splits with other circuits’ approach to analyzing the
use of force by law enforcement officers.
In Graham, this Court held reasonableness is
measured at the moment force is applied, and accounts
for the fact that officers must make split-second judgments in circumstances that are tense, uncertain, and
rapidly evolving. Id. at 396–97. The Tenth Circuit has

8
repeatedly noted this instruction from Graham. See,
e.g., Pauly v. White, 874 F.3d 1197, 1215 (10th Cir.
2017) cert. denied, 138 S.Ct. 2650 (2018); Estate of
Larsen ex rel. Sturdivan v. Murr, 511 F.3d 1255, 1259
(10th Cir. 2008); Jiron v. City of Lakewood, 392 F.3d
410, 414 (10th Cir. 2004); Archuleta v. McShan, 897
F.2d 495, 500 (10th Cir. 1990).
The reasonableness of a particular use of force is
judged in light of the surrounding facts and circumstances, including three factors set forth by this Court
in Graham: (1) the severity of the crime at issue, (2)
whether the suspect poses an immediate threat to the
safety of the officer or others, and (3) whether the individual actively resists arrest or attempts to evade arrest by flight. 490 U.S. at 396. See also Pauly v. White,
874 F.3d at 1215 (“we turn to the ubiquitous three factor test from Graham”).
Review is warranted to determine whether Petitioner Brewer’s conduct was unreasonable in light of
clearly established precedent which places the question beyond debate. The “calculus of reasonableness,”
Graham, 490 U.S. at 396–97, under the Fourth
Amendment will vary drastically when a court discounts the fact the encounter involves a person who
has committed a serious crime, attempted to elude law
enforcement by hiding in a shed, then ignored commands while belligerently approaching within just a
few feet of the officer before the officer deployed a less
than lethal beanbag round.

9
1. The Tenth Circuit ignored the facts shown
by the video and considered by the district
court, which blatantly contradicted the allegations in the complaint.
The district court viewed the facts as alleged in the
complaint except where those facts were blatantly contradicted by the videos referenced in the complaint.
Resolution of questions of qualified immunity require that courts first resolve the threshold question of
whether the facts alleged show the officer’s conduct violated a constitutional right. Scott v. Harris, 550 U.S.
at 377 (quoting Saucier v. Katz, 533 U.S. 194, 201
(2001)). Only if the court finds the facts show a violation of a constitutional right does the court move to the
next step to ask whether the right was clearly established in light of the specific context of the case. Id.
Thus, the “first step in assessing the constitutionality
of [an officer’s] actions is to determine the relevant
facts.” Id. at 378.
On a motion to dismiss, the district court properly
considered the videos referenced in a complaint that
were clearly central to the complaint. Pet. App. 12a
(citing GFF Corp. v. Assoc. Wholesale Grocers, Inc., 130
F.3d 1381, 1384–85 (10th Cir. 1997)); see also
Fed.R.Civ.P. 10(c) (a “written instrument that is an exhibit to a pleading is a part of the pleading for all purposes”), and 5A Federal Practice & Procedure § 1327
(4th ed.) (“when the plaintiff fails to introduce a pertinent document as part of her pleading, the defendant
may be permitted to introduce the document as an exhibit to a motion attacking the sufficiency of the pleading if the plaintiff has referred to the item in the complaint and it is central to the affirmative case”).

10
The district court further adhered to this Court’s
teaching in Scott v. Harris and did not credit the allegations in the complaint that were “plainly contradicted” by the video, and viewed the facts as shown in
the videos instead of the allegations “blatantly contradicted” by the videos. Id. at 12a–13a (citing Scott v.
Harris, 550 U.S. at 380).
[A court] is not bound to accept the pleader’s allegations as to the effect of the exhibit, but can
independently examine the document and form
its own conclusions as to the proper construction
and meaning to be given the attached material,
as long as the justice-seeking objectives of the
federal rules are kept in mind. It appears to be
well settled that when a disparity exists between the written instrument annexed to the
pleadings and the allegations in the pleadings,
the terms of the written instrument will control,
particularly when it is the instrument being relied upon by the party who made it an exhibit.
5A Fed. Prac. & Proc. Civ. § 1327 (4th ed.) (citations
omitted).
The Tenth Circuit erroneously credited only the allegations within the four corners of the complaint despite the fact the district court had found they were
“blatantly contradicted” by the video and audio, which
that court considered when addressing the motion to
dismiss. The Tenth Circuit assumed no crime had been
committed, id. at 6a, 8a, despite the fact Myers had

11
committed the offenses of aggravated assault and felony interference.1 The Tenth Circuit further erroneously credited the allegations that Myers merely stood
empty-handed and was not threatening the officers or
attempting escape despite the fact Myers had hidden
in a shed as officers were conducting a house-to-house
search, emerged from the shed after being discovered,
shouting at the officers, not complying with commands, being belligerent, and closing the distance
with Brewer at the time he fired the beanbag round.
Id. at 13a–14a, 27a–28a.
2. Under the first Graham factor, Myers’
crimes were severe.
The first Graham factor, “the severity of the crime
at issue,” 490 U.S. at 396, weighs in favor of Brewer.
Myers was reported to be intoxicated, got into a
barfight, was evicted, after which he then returned
armed with a shotgun and threatened people. At the
time Myers was shot with the beanbag round, he was
not complying with the commands given by Undersheriff Brewer and Deputy Suchy and had advanced
half the distance from the shed to Brewer.

See Kan. Stat. Ann. § 21-5412 (aggravated assault), Kan.
Stat. Ann. § 21-5904 (interference). Under Kan. Stat. Ann. § 215412 (b)(1) aggravated assault is knowingly placing another person in reasonable apprehension of immediate bodily harm, committed with a deadly weapon. It is a severity level 7, person felony. Kan. Stat. Ann. § 21-5412(e)(2).
Under Kan. Stat. Ann. § 21-5904(a)(3) and (b)(5) felony interference with law enforcement occurs from “obstructing, resisting
or opposing any person … in the discharge of any official duty”
and is a severity level 9, nonperson felony.
1

12
While the Tenth Circuit inexplicably stated Myers
had committed no crime, the district court unaccountably described Myers’ crimes as “not particularly severe.” Pet. App. 27a. The facts found by the district
court clearly showed Myers had threatened people
with a shotgun in the street in front of a bar after he
had been thrown out of the bar for fighting and, at the
time Brewer discharged the beanbag round, was not
complying with the commands of the officers. Id. at
13a–14a, 27a–28a.
Threatening people with a gun is a serious crime.
See, e.g., McCoy v. Meyers, 887 F.3d 1034, 1051 and
n.21 (10th Cir. 2018) (pointing a gun at someone was
a serious crime). Under Kansas law, Myers had committed the crimes of aggravated assault and felony interference. Kan. Stat. Ann. § 21-5412 (aggravated assault), Kan. Stat. Ann. § 21-5904 (interference).
3. Under the third Graham factor, Myers was
actively resisting arrest.
The third Graham factor, “whether [the suspect] is
actively resisting arrest or attempting to evade arrest
by flight,” 490 U.S. at 396, also weighs in favor of Petitioner Brewer.
The district court determined the facts shown by
the video “blatantly contradicted” the allegations in
the complaint and Myers was shouting at the deputies,
was being belligerent, did not comply with the commands to raise his hands and get on the ground, and
was moving toward the house and closer to Brewer in
the doorway of the house. Pet. App. at 14a, 27a–28a.
When addressing a qualified immunity defense, a
court of appeals is not free to credit the non-moving

13
parties’ allegations when they are blatantly contradicted by video that is authentic and properly considered. Scott v. Harris, 550 U.S. at 380. The Tenth Circuit, looking only to the four corners of the complaint,
concluded Myers was not actively resisting arrest or
attempting to evade arrest, and credited the allegation
that he was shot as he “stood in the yard, with empty
hands at his sides” while he “did not threaten the officers, brandish a weapon, or attempt to escape.” Pet.
App. 7a. The Tenth Circuit noted Myers “possessed no
weapon,” id., at 8a, despite the district court’s conclusion that officer did not know Myers had put away the
shotgun in his home. Id. at 14a.
Tenth Circuit precedent holds that an officer is not
required to wait until a suspect is within reach to avert
a perceived threat. See Estate of Larsen, 511 F.3d at
1260 (“A reasonable officer need not await the ‘glint of
steel’ before taking self-protective action; by then it is
‘often … too late to take safety precautions.’” (quoting
People v. Morales, 198 A.D.2d 129, 603 N.Y.S.2d 319,
320 (1993))); see also Estate of Ceballos v. Husk, 919
F.3d 1204, 1231 (10th Cir. 2019) (subject closing the
distance between himself and officer Husk, shortening
the window of time before he would be within striking
distance of officer with a baseball bat; Tenth Circuit
precedent did not require officer to wait until he was
within reach of the baseball bat) (Bacharach, J., concurring in part and dissenting in part).
The facts identified by the district court from the
video show Myers was, by all appearances, actively
trying to evade and/or resist arrest. The district court
determined from the video that Myers was shouting at
the deputies, was being belligerent, did not comply
with the commands to raise his hands and get on the

14
ground, and was moving toward the house and closed
to within just a few feet of Brewer standing in the doorway of the house. Id. at 14a, 27a–28a.
4. The right identified by the district court is
not clearly established and no existing
precedent places the constitutional question beyond debate.
The constitutional rule identified by the district
court below was not “beyond debate.” Ashcroft v. al–
Kidd, 563 U.S. 731, 741 (2011). The district court, in
fact, articulated a constitutional rule that has not been
applied in any other case. Without citation to any authority, the district court said the right at issue “is the
right not to be shot with a high-speed projectile (even
a less-lethal one) at close range when unarmed and
making no apparent move to attack an officer or bystander.” Pet. App. 30a.
Because “‘police officers are often forced to make
split second judgments—in circumstances that are
tense, uncertain, and rapidly evolving—about the
amount of force that is necessary in a particular situation,’ the reasonableness of the officer’s belief as to
the appropriate level of force should be judged from
that on-scene perspective.” Saucier v. Katz, 533 U.S.
194, 205 (2001), quoting Graham, 490 U.S. at 397. The
reasonableness standard does not require that officers
employ the least intrusive or forceful alternative when
confronting a threat. See, e.g., Illinois v. Lafayette, 462
U.S. 640, 647 (1983) (“The reasonableness of any particular governmental activity does not necessarily or
invariably turn on the existence of alternative “less intrusive” means”); Medina v. Cram, 252 F.3d 1124,
1133 (10th Cir. 2001) (“the reasonableness standard

15
does not require that officers use ‘alternative less intrusive means.’”) (quoting Lafayette, 462 U.S. 647–48)
(internal quotations omitted). Likewise, an officer that
reasonably but mistakenly believes a suspect was
likely to fight back “the officer would be justified in using more force than in fact was needed.” Saucier, 533
U.S. at 205.
A clearly established right is one that is “sufficiently clear that every reasonable official
would have understood that what he is doing violates that right.” Reichle v. Howards, 566 U.S.
658, 664 (2012) (internal quotation marks and
alteration omitted). “We do not require a case
directly on point, but existing precedent must
have placed the statutory or constitutional
question beyond debate.” [al-Kidd, 563 U.S. at
741]. Put simply, qualified immunity protects
“all but the plainly incompetent or those who
knowingly violate the law.” Malley v. Briggs,
475 U.S. 335, 341 (1986).
“We have repeatedly told courts ... not to define clearly established law at a high level of
generality.” al–Kidd, supra, at 742. The dispositive question is “whether the violative nature of
particular conduct is clearly established.” Ibid.
(emphasis added). This inquiry “‘must be undertaken in light of the specific context of the case,
not as a broad general proposition.’” Brosseau v.
Haugen, 543 U.S. 194, 198 (2004) (per curiam)
(quoting [Saucier, 533 U.S. at 201]).
Mullenix v. Luna, 136 S.Ct. 305, 308 (2015). Mullenix
and other of this Court’s recent cases make it clear

16
that the overgeneralization by the lower courts is impermissible in all but very obvious cases of excessive
force. See Kisela v. Hughes, 138 S.Ct. 1148, 1154
(2018). “[T]he clearly established law must be ‘particularized’ to the facts of the case.” White v. Pauly, 137
S.Ct. 548, 552 (2017). The “clearly established” prong
requires identification of a “a case where an officer acting under similar circumstances as [defendant] was
held to have violated the Fourth Amendment.” Id.
“‘[G]eneral statements of the law are not inherently incapable of giving fair and clear warning” to officers,
[citation omitted], but ‘in the light of pre-existing law
the unlawfulness must be apparent. [Citation omitted.]’” Id.
The Tenth Circuit opinion is premised upon the assumption that Undersheriff Brewer lacked probable
cause to believe Myers had committed any crime, Pet.
App. 6a, when Brewer had probable cause to believe
Myers had committed the offense of aggravated assault. Id. at 13a, at 27a-28a. This premise is absolutely
at odds with the facts as set forth in the district court’s
opinion. Compare id. at 6a (“[t]here was no crime at
issue”) with id. at 13a (911 call reported “Steven Myers
was threatening people with a shotgun in the street in
front of Buster’s Bar in Sun City, Kansas. The caller
indicated that Myers was drunk and had been thrown
out of the bar for fighting.”). In a footnote, the Tenth
Circuit’s opinion makes the contradictory statements
that the “conclusion remains unchanged” even if it
were to accept that Brewer believed Myers had committed aggravated assault. Slip op., at 6 n.4 (citing
Morris v. Noe, 672 F.3d 1185, 1195 n.4 (10th Cir.
2012)). The Morris decision was premised upon the
“facts the district court assumed, [that] Defendant did

17
not have probable cause to arrest Morris for any
crime.” 672 F.3d at 1195 (emphasis added). The calculus of reasonableness under the Fourth Amendment
differs substantially when the analysis begins by assuming a lack of probable cause to believe the subject
committed any crime.
The Tenth Circuit’s decision below diverges dramatically from its own jurisprudence, and that of this
Court, and splits from other circuits’ approach to analyzing the use force by law enforcement officers.
Tenth Circuit precedent reveals use of even deadly
force is reasonable and justified under the Fourth
Amendment when a reasonable officer has cause to believe that there was a threat of serious physical harm
to themselves or to others. Estate of Larsen, 511 F.3d
at 1260. Officers need not wait for an assailant to shoot
first or otherwise attempt to use a weapon before using
force to address the perceived threat. See, e.g., Thomson v. Salt Lake Cnty., 584 F.3d 1304, 1317–18 (10th
Cir. 2009) (officer justified in shooting armed suspect
where suspect, at the moment the officer fired the fatal
shot, was pointing the gun towards his own head and
not towards the officer); Estate of Larsen, 511 F.3d at
1260 (officer justified in shooting man with knife
raised even if man did not make stabbing or lunging
motions towards him, as a “reasonable officer need not
await the ‘glint of steel’ before taking self-protective
action; by then, it is ‘often too late to take safety precautions’”) (quoting People v. Morales, 198 A.D.2d 129,
130 (N.Y. App. Div. 1993)); Wilson v. Meeks, 52 F.3d
1547, 1553–54 (10th Cir. 1995) (use of deadly force reasonable where suspect aimed pistol in officer’s direction but plaintiff argued suspect had not intended to
threaten officer).

18
The Tenth Circuit previously held that “qualified
immunity does not require that the police officer know
what is in the heart or mind of his assailant. It requires that he react reasonably to a threat.” Wilson v.
Meeks, 52 F.3d at 1553–54 (rejecting plaintiffs’ contention that the way decedent was holding his gun suggested he intended to surrender: “the inquiry here is
not into [decedent’s] state of mind or intentions, but
whether, from an objective viewpoint and taking all
factors into consideration, [the officer] reasonably
feared for his life”). Cf. Scott, 550 U.S. at 385 (rejecting
the argument that police should have ceased the pursuit instead of ramming the suspect’s car, explaining
that “the police need not have taken that chance and
hoped for the best”).
This is consistent with the law of other circuits. See,
e.g., Smith v. City of Hemet, 394 F.3d 689, 704 (9th Cir.
2005) (en banc) (“where a suspect threatens an officer
with a weapon such as a gun or a knife, the officer is
justified in using deadly force”). An officer’s use of force
is reasonable—meaning there is no constitutional violation—when the officer reasonably believes that the
suspect poses a threat of serious harm to the officer or
to others. Manis v. Lawson, 585 F.3d 839, 843 (5th Cir.
2009). See also Montoute v. Carr, 114 F.3d 181, 185
(11th Cir. 1997) (“an officer is not required to wait until an armed and dangerous felon has drawn a bead on
the officer or others before using deadly force.”).
In Mullins v. Cyranek, 805 F.3d 760 (6th Cir. 2015),
an officer pushed a young man to the ground that he
suspected of illegally carrying a gun. The suspect eventually brandished a gun. The officer, still pinning the
suspect to the ground, told him to drop the gun, and in
response the suspect threw the gun over the officer’s

19
shoulder. Id. at 763. Five seconds later, the officer fired
two shots at the suspect, killing him. Id. at 764. Nonetheless, the Sixth Circuit affirmed the district court’s
decision to grant qualified immunity to the officer,
holding that the officer’s actions were not unreasonable.
Noting that the suspect initially had his finger on
the trigger of a gun (posing a significant threat to the
officer and others), the Sixth Circuit reasoned that
“[w]hile [the officer]’s decision to shoot [the suspect] after he threw his weapon away may appear unreasonable in the ‘sanitized world of our imagination,’ [the officer] was faced with a rapidly escalating situation,
and his decision to use deadly force in the face of a severe threat to himself and the public was reasonable.
Mullins, 805 F.3d at 767 (quoting Dickerson v. McClellan, 101 F.3d 1151, 1163 (6th Cir. 1996)). Based upon
a host of cases from various circuits, the court concluded that “[w]hile hindsight reveals that [the suspect] was no longer a threat when he was shot,” officers should not be denied qualified immunity “in situations where they are faced with a threat of severe injury or death and must make split-second decisions,
albeit ultimately mistaken decisions, about the
amount of force necessary to subdue such a threat.”
Mullins, 805 F.3d at 767–68 (collecting cases).
In Quiles v. City of Tampa Police Dep’t, 596
Fed.Appx. 816 (11th Cir. 2015) (unpublished) (per curiam), the Eleventh Circuit held that an officer did not
violate the Fourth Amendment by shooting an unarmed suspect who was attempting to escape from an
arrest on foot. Because the officer “believed reasonably
(although mistakenly) that [he] had stolen and was
still in possession of [another officer’s] gun,” the use of

20
deadly force was reasonable even though the suspect
“was running away … when he was shot and had not
threatened definitely the officers with a gun.” Quiles,
596 Fed.Appx. at 819. In Quiles, the decedent actually
had a gun pointed at two of the petitioner officers only
moments after his brother had fired two shotgun
blasts in the proximity of the third officer.
In Loch v. City of Litchfield, 689 F.3d 961 (8th Cir.
2012), the Eighth Circuit ruled that an officer did not
violate the Fourth Amendment when he fired eight
shots at an unarmed suspect who was approaching
him on foot with his hands raised or extended to his
sides. The victim had not brandished a firearm and bystanders yelled that the suspect was unarmed. The officer’s use of deadly force was nevertheless deemed
reasonable because the suspect was intoxicated, the officer had been told that the suspect was armed, and
the officer “was in no position—with [the victim] continuing toward him—to verify which version was
true.” Loch, 689 F.3d at 966–67.
In this case, the Tenth Circuit diverges from its
prior cases that acknowledge “a right is clearly established when a precedent involves ‘materially similar
conduct’ or applies ‘with obvious clarity’ to the conduct
at issue.” Apodaca v. Raemisch, 864 F.3d 1071, 1076
(10th Cir. 2017), cert. denied, 139 S.Ct. 5 (2018) (internal quotes and citations omitted) (emphasis in original). Again, in the present case, Myers had been armed
and the officers did not know he was no longer armed.
Moreover, Myers was intoxicated and was advancing
on Brewer while shouting, being belligerent, and failing to comply with commands.

21
Conclusion
Myers committed a severe, felony offense by threatening bar patrons with a shotgun. A reasonable officer
could, at a minimum, conclude the intoxicated Myers
actively resisted arrest by hiding in a shed and failing
to comply with the commands to put his hands up and
get on the ground, shouting and being belligerent, and
advancing from the shed to within mere feet of Brewer.
The “right not to be shot with a high-speed projectile (even a less-lethal one) at close range when unarmed and making no apparent move to attack an officer or bystander” is not clearly established and no existing precedent places the constitutional question beyond debate.
Based upon the foregoing, the Petition for Writ of
Certiorari should be granted.
Respectfully submitted,
David R. Cooper
Counsel of Record
Fisher, Patterson, Sayler
& Smith, LLP
3550 SW 5th Street
Topeka, Kansas 66606
Telephone: (785) 232-7761
dcooper@fisherpatterson.com
Date: November 19, 2019

Appendix

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
Kristina MYERS, individually, and as administrator of the Estate of Steven P. Myers, and as natural
parent and legal guardian of K.D.M., C.F.M. and
K.J.M., minors, Plaintiff - Appellee,
v.
Virgil BREWER, individually and in his official
capacity as Undersheriff of Barber County, Kansas,
Defendant - Appellant,
and
Lonnie Small, individually and in his official capacity as Sheriff of Barber County, Kansas, Defendant.
No. 18-3145
FILED July 24, 2019
Before BRISCOE, BALDOCK, and BACHARACH,
Circuit Judges.
ORDER AND JUDGMENT*

* After examining the briefs and appellate record, this
panel has determined unanimously that oral argument would not
materially assist in the determination of this appeal. See Fed. R.
App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore ordered submitted without oral argument. This order and judgment
is not binding precedent, except under the doctrines of law of the
case, res judicata, and collateral estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.

2a
Bobby R. Baldock, Circuit Judge
Virgil Brewer, Undersheriff of Barber County,
Kansas, shot and killed Steven Myers with a beanbag
round fired from a 12-gauge shotgun. After the shooting, Mr. Myers’ wife, Kristina Myers, commenced this
action in the district court, which dismissed or declined to exercise jurisdiction over most of her claims,
though it refused to dismiss her excessive force claim
under Fed. R. Civ. P. 12(b)(6) based on qualified immunity. Undersheriff Brewer appealed, and Ms. Myers
moved to dismiss the appeal for lack of jurisdiction.1
For the following reasons, we deny the motion to dismiss and affirm the denial of qualified immunity.
I
On October 6, 2017, at 6:26 pm, the Barber County
Sheriff’s office received a call indicating that Mr. Myers was in front of a bar with a shotgun.2 Forty-one

Undersheriff Brewer asserts “[t]his ... is an appeal
from a final judgment under Fed. R. Civ. P. 54(b), and this
Court has jurisdiction under 28 U.S.C. § 1291.” Aplt. Br.
at 1. In fact, this is an interlocutory appeal from the
denial of qualified immunity, and the district court
docket sheet confirms that court never entered a Rule
54(b) certification. See Aplt. App., Vol. 1 at 1-6.
2 Because this case was decided on a Rule 12(b)(6)
motion, “we accept all well-pleaded factual allegations
in the complaint as true,” Thomas v. Kaven, 765 F.3d
1183, 1188 n.1 (10th Cir. 2014), and may consider audio and video recordings taken from the responding officers’ body cameras, which are referenced in the complaint, see Montoya v. Vigil, 898 F.3d 1056, 1060 n.2
(10th Cir. 2018); Brokers’ Choice of Am., Inc. v. NBC
1

3a
minutes later, at 7:07 pm, several officers, including
Undersheriff Brewer, Sheriff Lonnie Small, and Deputy Mark Suchy, arrived on scene. Mr. Myers had already gone home, put away his gun, and taken his dog
for a walk, but officers began searching for him houseto-house. Sheriff Small entered one house with his K9, followed by Undersheriff Brewer and Deputy Suchy.
Sheriff Small reached the back door and spotted Mr.
Myers in a backyard shed, approximately fifteen feet
away. Sheriff Small shouted for Mr. Myers to come out
of the shed as he turned and led the K-9 away, telling
Undersheriff Brewer, “he’s in the shed,” Aplt. App.,
Vol. 1 at 10, para. 30. Sheriff Small pointed for Undersheriff Brewer to confront Mr. Myers, who, seconds
later, emerged from the shed and stood in the backyard, unarmed.
Undersheriff Brewer and Deputy Suchy shouted to
Mr. Myers, “Put your hands up!” and “Get on the
ground!” Id. at 11, para. 33. Mr. Myers continued
standing “in the yard, with empty hands at his sides.”
Id., para. 34. After eight seconds, Undersheriff Brewer
shot him in the chest with a beanbag round fired from
a 12-gauge shotgun from a distance of approximately
six to eight feet. Mr. Myers screamed, “Ow!,” fell to his
hands and knees, and then collapsed face down on the
ground. Id., para. 39. Undersheriff Brewer handcuffed
him and rolled him over; his shirt was covered with
blood, which began to pool on the ground. After some
five and half minutes, Deputy Suchy commenced CPR.
When the coroner arrived, he assessed the scene and
said, “That’s from a beanbag? Holy shit! I thought they
weren’t supposed to penetrate. Must’ve been pretty

Universal, Inc., 861 F.3d 1081, 1103 & n.22 (10th Cir.
2017).

4a
damn close, like six to eight feet maybe?” Id. at 12,
para. 49. Deputy Suchy and another officer continued
their efforts to resuscitate Mr. Myers, but they failed,
and he was pronounced dead at the scene.
Ms. Myers brought this action on behalf of her husband’s estate and their three minor children. She asserted claims against Sheriff Small and Undersheriff
Brewer in their individual and official capacities for
excessive force in violation of the Fourth Amendment
(count one), “[s]urvival,” id. at 14, (count two), conspiracy to use excessive force (count three), violation of the
civil right to familial relationship (count four), and
wrongful death under state law (count five). Undersheriff Brewer and Sheriff Small filed separate motions to dismiss under Rule 12(b)(6) based on qualified
immunity. They also submitted recordings of the call
and videos captured by the responding officers’ dash
and body cameras, including Deputy Suchy’s body
camera, which partially recorded the shooting.
The district court considered this material and dismissed all but the excessive force claim against Undersheriff Brewer, declining to exercise supplemental jurisdiction over the state law individual capacity
claims. Those rulings are not before us. Regarding the
excessive force claim against Undersheriff Brewer, the
district court concluded that the video taken from Deputy Suchy’s body camera did not clearly contradict the
allegations in the complaint, which adequately alleged
a constitutional violation. The court further concluded
that the complaint adequately alleged a violation of
clearly established law, and thus Undersheriff Brewer

5a
was not entitled to qualified immunity at this stage of
the proceedings. This appeal followed.3
II
We review de novo the district court’s denial of a
Rule 12(b)(6) motion to dismiss based on qualified immunity. Prager v. LaFaver, 180 F.3d 1185, 1190 (10th
Cir. 1999). “A defendant may immediately appeal the
denial of a 12(b)(6) motion based on qualified immunity to the extent that denial turns on an issue of law.”
Id. (citing Behrens v. Pelletier, 516 U.S. 299, 307, 116
S.Ct. 834, 133 L.Ed.2d 773 (1996)). We agree with the
district court, as a matter of law, that the video here
does not clearly contradict the allegations in the complaint, and we confine our analysis accordingly. “Although qualified immunity defenses are typically resolved at the summary judgment stage, district courts
may grant motions to dismiss on the basis of qualified
immunity.” Thomas v. Kaven, 765 F.3d 1183, 1194
(10th Cir. 2014). “Asserting a qualified immunity defense via a Rule 12(b)(6) motion, however, subjects the
defendant to a more challenging standard of review
than would apply on summary judgment.” Id. (internal
quotation marks omitted). “At the motion to dismiss
stage, it is the defendant’s conduct as alleged in the
complaint that is scrutinized for objective legal reasonableness.” Id. (brackets and internal quotation marks
omitted). We evaluate “(1) whether the facts that a

Ms. Myers moved to dismiss the appeal, asserting
the district court identified factual issues precluding
qualified immunity. See Johnson v. Jones, 515 U.S.
304, 313-14, 115 S.Ct. 2151, 132 L.Ed.2d 238 (1995).
We deny the motion to dismiss because, as set out below, this appeal involves issues of law.
3

6a
plaintiff has alleged make out a violation of a constitutional right, and (2) whether the right at issue was
clearly established.” Keith v. Koerner, 707 F.3d 1185,
1188 (10th Cir. 2013) (internal quotation marks omitted).
“We review [Fourth Amendment] excessive force
claims under a standard of objective reasonableness,
judged from the perspective of a reasonable officer on
the scene, rather than with 20/20 vision of hindsight.”
Pauly v. White, 874 F.3d 1197, 1215 (10th Cir. 2017)
(internal quotation marks omitted), cert. denied, –––
U.S. ––––, 138 S. Ct. 2650, 201 L.Ed.2d 1063 (2018).
We evaluate the totality of circumstances, “allow[ing]
for the fact that police officers are often forced to make
split-second judgments—in circumstances that are
tense, uncertain, and rapidly evolving—about the
amount of force that is necessary in a particular situation.” Plumhoff v. Rickard, 572 U.S. 765, 774-75, 134
S.Ct. 2012, 188 L.Ed.2d 1056 (2014) (brackets and internal quotation marks omitted). Our analysis “requires careful attention to the facts and circumstances
of each particular case, including the severity of the
crime at issue, whether the suspect poses an immediate threat to the safety of the officers or others, and
whether he is actively resisting arrest or attempting to
evade arrest by flight.” Pauly, 874 F.3d at 1215 (emphasis and internal quotation marks omitted).
The circumstances here, as alleged in the complaint, are sufficient to indicate a Fourth Amendment
violation. There was no crime at issue, and although
the police received a call that Mr. Myers was in front
of a bar with a shotgun, there are no allegations that
he was prohibited from possessing a shotgun in public.
Nor did he pose an immediate threat to the officers or
anyone else—the officers did not arrive on scene for

7a
some forty-one minutes, and there are no allegations
that Mr. Myers threatened anyone in the interim.4 Indeed, the complaint avers that he went home, put
away his gun, and took his dog for a walk. When the
officers later encountered Mr. Myers, they ordered him
out of the backyard shed and, “[w]ithin a few seconds
... [he] was standing—unarmed—outside of the shed in
the middle of the backyard.” Aplt. App., Vol. 1 at 11,
para. 32. Although he did not immediately comply
with Undersheriff Brewer and Deputy Suchy’s orders
to put his hands up and get on the ground, Undersheriff Brewer fired the beanbag round “[a]fter a mere
eight seconds of shouting inconsistent commands at
[Mr.] Myers.” Id., para. 36. Yet there are no allegations
that Mr. Myers was actively resisting arrest or attempting to evade arrest. Rather, the complaint alleges that he was shot as he “stood in the yard, with
empty hands at his sides.” Id., para. 34. According to
the complaint, he “did not threaten the officers, brandish a weapon, or attempt to escape.” Id., para. 35.
These allegations state a constitutional violation and
satisfy the first prong of the qualified immunity analysis.
We turn to whether the law was clearly established. The Supreme Court has repeatedly admonished “courts not to define clearly established law at a
Even if we must accept Undersheriff Brewer’s assertion that he believed Mr. Myers had committed aggravated assault by threatening people with the shotgun in front of the bar, our conclusion remains unchanged because the allegations in light of the totality
of circumstances remain sufficient to allege a constitutional violation. See Morris v. Noe, 672 F.3d 1185,
1195 n.4 (10th Cir. 2012).
4

8a
high level of generality.” Mullenix v. Luna, ––– U.S. –
–––, 136 S. Ct. 305, 308, 193 L.Ed.2d 255 (2015) (per
curiam) (ellipsis and internal quotation marks omitted). “A clearly established right is one that is sufficiently clear that every reasonable official would have
understood that what he is doing violates that right.”
Id. (internal quotation marks omitted). “We do not require a case directly on point, but existing precedent
must have placed the statutory or constitutional question beyond debate.” Id. (internal quotation marks
omitted). “The dispositive question is whether the violative nature of particular conduct is clearly established.” Id. (internal quotation marks omitted).
Undersheriff Brewer shot Mr. Myers from a distance of six to eight feet with a beanbag round fired
from a 12-gauge shotgun. Although Mr. Myers had
been in front of a bar with a shotgun some forty-one
minutes earlier, when Undersheriff Brewer confronted
him he had committed no crime, possessed no weapon,
and immediately complied with the order to come out
of the shed. He neither resisted arrest nor attempted
to flee, though he did fail to put his hands up and get
on the ground within the eight seconds of being ordered to do so before Undersheriff Brewer fired the
beanbag. We have held it is clearly established that an
officer uses excessive force when he executes a forceful
takedown of a subject who at most was a misdemeanant, but otherwise posed no threat and did not resist
arrest or flee. See Morris, 672 F.3d at 1198. We have
also held it is clearly established that an officer uses
excessive force when he shoots a subject who possessed
a knife and took three steps toward the officer from a
distance of some five to ten feet but otherwise made no
threatening motion. See Tenorio v. Pitzer, 802 F.3d
1160, 1165-66 (10th Cir. 2015). Indeed, our decision in

9a
Tenorio was predicated on Zuchel v. City & County of
Denver, 997 F.2d 730, 735 (10th Cir. 1993), where a
restaurant manager called the police because Zuchel
had created a disturbance. By the time the police arrived, Zuchel had left and was found nearby in a
“heated exchange” with several teenagers, one of
whom shouted—incorrectly—that he had a knife. Id.
Zuchel took “three wobbly steps toward” the officer,
who was six to eight feet away, and the officer shot
him. Id. at 736. We held this evidence was sufficient to
support a jury finding that the officer’s use of force was
not objectively reasonable. Id. We think Zuchel, Tenorio, and Morris clearly established that the use of force
under the circumstances confronted by Undersheriff
Brewer here was not objectively reasonable. Accordingly, we affirm the denial of qualified immunity.
III
The motion to dismiss this appeal is denied, and the
judgment of the district court is affirmed.

10a
Appendix B
Kristina MYERS, et al., Plaintiffs,
v.
Virgil BREWER, et al., Defendants.
Case No. 17-2682
|
Signed 06/27/2018
MEMORANDUM AND ORDER
CARLOS MURGUIA, United States District Judge
This case arises out of the death of Steven P. Myers.
Mr. Myers was shot with a “beanbag round” from a 12gauge shotgun at a distance of six to eight feet. At the
time, Mr. Myers was not brandishing a weapon or attempting to escape. Defendant Virgil Brewer, Undersheriff of Barber County, Kansas, fired the beanbag
round. Defendant Lonnie Small, Sheriff of Barber
County, was present at the scene but withdrew with
his K-9 just before the shooting. Mr. Myers died at the
scene. The shooting, as well as the events leading up
to the shooting, were captured on audio and/or video
recording.
Plaintiff Kristina Myers, individually, as Administrator of the Estate of Steven P. Myers, and as natural
parent and legal guardian of K.D.M., C.F.M., and
K.J.M., minors, claims that defendants Brewer and
Small are responsible in both their individual and official capacities for the death of her husband. She
brings the following claims: (1) Count I: § 1983 claim
for excessive force in violation of the Fourth and Fourteenth Amendments (on behalf of the estate); (2) Count

11a
II: § 1983 claim for survival (on behalf of the estate);
(3) Count III: § 1983 claim for conspiracy to use excessive force (on behalf of the estate); (4) Count IV: § 1983
claim for violation of the civil right to familial relationship (on behalf of herself and the children); and (5)
Count V: wrongful death under Kansas law (on behalf
of herself and the children).
Defendants Brewer and Small each separately
moved to dismiss plaintiff’s complaint. In defendant
Small’s motion to dismiss (Doc. 10), defendant Small
asks for dismissal on the following grounds:
(1) He is entitled to qualified immunity on the
claims against him in his individual capacity because
(a) the complaint does not allege that he personally participated in the application of force;
(b) the allegations of conspiracy are insufficient;
and
(c) no clearly established law suggests that defendant Small’s conduct was plainly incompetent or in knowing violation of the law;
(2) There is no viable official capacity claim; and
(3) The state law claims are not viable because
(a) defendant Small has Eleventh Amendment
immunity;
(b) the complaint does not allege that defendant
Small used any force against Mr. Myers; and
(c) the court may decline supplemental jurisdiction.
Defendant Brewer moves for dismissal on similar
grounds in Doc. 17:

12a
(1) He is entitled to qualified immunity because his
actions, in a tense and rapidly-evolving situation, did not violate any clearly established
rights of plaintiff;
(2) There is not a valid official capacity claim
against defendant Brewer;
(3) Plaintiff failed to plead any facts sufficient to
establish a viable conspiracy claim; and
(4) The court should decline to exercise supplemental jurisdiction over the state law claims.
For the following reasons, the court grants defendant Small’s motion and grants in part and denies in
part defendant Brewer’s motion.
I. Factual Background
The following facts are taken from plaintiff’s complaint. The court has also considered the content of the
video recordings submitted by defendants. The videos
are referenced in the complaint and are central to the
complaint. It is well-settled that on a motion to dismiss, the court may consider documents referenced in
a complaint that are also central to the complaint. See
GFF Corp. v. Assoc. Wholesale Grocers, Inc., 130 F.3d
1381, 1384–85 (10th Cir. 1997). It is further well-settled that when a non-moving party’s version of the
facts are plainly contradicted by video, the court need
not view the facts in the light most favorable to the
non-moving party. Scott v. Harris, 550 U.S. 372, 380
(2007) (deciding, at summary judgment stage—not the
motion to dismiss stage—that the content of a videotape recording controlled when it “blatantly contradicted” the plaintiff’s version of the facts). The court

13a
sees no difference between considering documents referenced in the complaint and considering video and
audio referenced in the complaint. But cf. McHenry v.
City of Ottawa, No. 16-3726-DDC, 2017 WL 4269903,
at *4 (D. Kan. Sept. 26, 2017) (declining to consider
video when the video was not incorporated by reference or central to the plaintiff’s complaint). To the extent the allegations in plaintiff’s complaint are “blatantly contradicted” by the videos, the court has considered the videos instead of the unsupported factual
allegations.
Moreover, the videos are part of the public record
in another court case. A court may take judicial notice
of facts that are a matter of public record and of state
court documents. Tal v. Hogan, 453 F.3d 1244, 1264
n.24 (10th Cir. 2006); Pace v. Swerdlow, 519 F.3d 1067,
1072 (10th Cir. 2008). “[F]ederal courts, in appropriate
circumstances, may take notice of proceedings in other
courts, both within and without the federal judicial
system, if those proceedings have a direct relation to
matters at issue.” St. Louis Baptist Temple, Inc. v. Fed.
Deposit Ins. Corp., 605 F.2d 1169, 1172 (10th Cir.
1979) (citations omitted). The court does so without
converting a motion to dismiss into a motion for summary judgment. Grynberg v. Koch Gateway Pipeline
Co., 390 F.3d 1276, 1278 n.1 (10th Cir. 2004) (citations
omitted). With these standards in mind, the court now
turns to the facts of the case.
On October 6, 2017 at 6:26 p.m., the Barber County
Sheriff’s Office received a 9-1-1 call, reporting that Steven Myers was threatening people with a shotgun in
the street in front of Buster’s Bar in Sun City, Kansas.
The caller indicated that Mr. Myers was drunk and

14a
had been thrown out of the bar for fighting. Four officers from Barber County responded: defendants Small
and Brewer, as well as Deputies Suchy and Miller. The
officers were not close, however, and by the time they
arrived, Mr. Myers had left the area. In fact, Mr. Myers had returned home, put away the shotgun, and had
taken his dog for a walk. But the officers were unaware
of this fact.
When the officers arrived in Sun City at 7:07 p.m.—
approximately forty-one minutes after the call—they
began searching house-to-house for Mr. Myers. While
searching, defendant Small remarked that, with a little luck, Mr. Myers would “just pass out and die.”
Eventually, defendant Small spotted Mr. Myers in
a shed in a home’s backyard, about fifteen feet away.
At the time, defendant Small was in the back door of
the house with a K-9. Defendant Small shouted for Mr.
Myers to come out of the shed, and then immediately
turned around and led the K-9 toward the front door,
away from Mr. Myers. Mr. Myers yelled back at defendant Small. Defendant Brewer and Deputy Suchy
began shouting at Mr. Myers, telling him to put his
hands up and get on the ground. Mr. Myers did not
comply with either command. He was also apparently
moving toward the house.
After about eight seconds of yelling, defendant
Brewer fired his 12-gauge shotgun at Mr. Myers’s
chest from a distance of six to eight feet. Defendant
Brewer fired a beanbag round, which is a small fabric
pouch filled with lead pellets. When used appropriately, a beanbag round is intended to be a less-lethal
weapon. But when fired from less than ten feet at a

15a
subject’s chest, the rounds still present risk of serious
injury or death.
After being hit, Mr. Myers fell to his knees and collapsed face-down. When defendant Brewer fired the
gun, defendant Small was exiting the front door of the
home. He passed the home’s occupant and commented
that defendant Brewer had “beanbag rounded him. He
didn’t ... it wasn’t lethal.” Defendant Small then told
another officer, “Shot him with a beanbag round.
Hadn’t shot anybody with it yet.” After that, defendant
Small disabled his body camera.
Defendant Brewer and Deputy Suchy remained
with Mr. Myers. They handcuffed him and rolled him
over so his face was up. Mr. Myers’s shirt was covered
in blood, and Deputy Suchy began performing CPR
about five-and-a-half minutes after the gunshot. One
of the officers called for EMS. Twenty-two minutes
later, EMS arrived. They encouraged Deputy Suchy to
continue his resuscitation efforts. EMS and law enforcement discussed the heavy odor of alcohol coming
from Mr. Myers.
When the coroner arrived, he assessed the scene
and said, “That’s from a beanbag? Holy shit! I thought
they weren’t supposed to penetrate. Must’ve been
pretty damn close, like six to eight feet maybe?” The
coroner asked if Mr. Myers was inside the house. Deputy Suchy began to answer, but defendant Small interrupted and said, “Don’t tell him everything but just
that he got shot here.” The coroner agreed, “I don’t
need to know all the facts.” Defendant Small continued, “Right, because KBI don’t want [the coroner] to
know [everything.]” Defendant Small later told Deputy Suchy to disable his body camera, even though the

16a
deputy remained on the scene for several more hours.
The coroner called Mr. Myers’s death at 8:08 p.m.
Plaintiff alleges that the Barber County Sheriff’s
Office “maintains no policy or procedures, and provides no training to its officers, for the appropriate use
of beanbag shotgun rounds.” (Doc. 1, at 7.)
II. Legal Standards
A. Standards for Dismissal under Rule
12(b)(6)
The court will grant a 12(b)(6) motion to dismiss
only when the factual allegations fail to “state a claim
to relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). Although the factual allegations need not be detailed, the claims must
set forth entitlement to relief “through more than labels, conclusions and a formulaic recitation of the elements of a cause of action.” In re Motor Fuel Temperature Sales Practices Litig., 534 F. Supp. 2d 1214, 1216
(D. Kan. 2008). The allegations must contain facts sufficient to state a claim that is plausible, rather than
merely conceivable. Id. “All well-pleaded facts, as distinguished from conclusory allegations, must be taken
as true.” Swanson v. Bixler, 750 F.2d 810, 813 (10th
Cir. 1984); see also Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009). The court construes any reasonable inferences
from these facts in favor of the plaintiff. Tal, 453 F.3d
at 1252.
B. Standards for Qualified Immunity on Individual Capacity Claims
Both defendants have asked the court to grant
them qualified immunity on the § 1983 claims against

17a
them in their individual capacities. For ease of reference, the court lays out the standards for evaluating
qualified immunity here.
The doctrine of qualified immunity protects government officials who perform discretionary government
functions from liability for civil damages and the obligation to defend the action. See Johnson v. Fankell,
520 U.S. 911, 914 (1997); Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982). This immunity is only applicable,
however, if the official’s conduct did not violate clearly
established constitutional or statutory rights that
would have been known by a reasonable government
official. See Harlow, 457 U.S. at 818; McFall v. Bednar,
407 F.3d 1081, 1087 (10th Cir. 2005). “In resolving a
motion to dismiss based on qualified immunity, a court
must consider whether the facts that a plaintiff has alleged make out a violation of a constitutional right,
and whether the right at issue was clearly established
at the time of defendant’s alleged misconduct.” Brown
v. Montoya, 662 F.3d 1152, 1164 (10th Cir. 2011) (citing Leverington v. City of Colo. Springs, 643 F.3d 719,
732 (10th Cir. 2011) ). Moreover, the inquiry is not
whether the general right to be free from excessive
force is clearly established—because it is—the inquiry
is whether plaintiff had a clearly established right under the particular facts of this case. Long v. Fulmer,
545 Fed.Appx. 757, 760 (10th Cir. 2013).
III. Discussion
A. Defendant Small’s Motion to Dismiss
1. Individual Capacity Claims
As noted above, defendant Small asks that the
court grant him qualified immunity on the claims
against him in his individual capacity on three bases:

18a
(1) defendant Small did not personally participate in
the application of force; (2) defendant Small cannot be
liable for conspiring; and (3) no clearly established law
exists showing that defendant Small’s conduct was
plainly incompetent or in knowing violation of the law.
The court addresses the first two of these arguments
below, as it is unnecessary to reach the third argument.
a. Personal Participation
“Individual liability under § 1983 must be based on
personal involvement in the alleged constitutional violation.” Gallagher v. Shelton, 587 F.3d 1063, 1069
(10th Cir. 2009) (quoting Foote v. Spiegel, 118 F.3d
1416, 1423 (10th Cir. 1997) ). Liability under § 1983
cannot be based on supervisory status alone; there
must be “an affirmative link ... between the constitutional deprivation and either the supervisor’s personal
participation, his exercise of control or direction, or his
failure to supervise.” Id. (quoting Green v. Branson,
108 F.3d 1296, 1302 (10th Cir. 1997) ); see also Dodds
v. Richardson, No. 09–6157, 2010 WL 3064002, at *8–
10 (10th Cir. Aug. 6, 2010) (reviewing standards for §
1983 supervisory liability in light of Iqbal; holding
stricter burden on plaintiff still requires affirmative
link; plaintiff must establish (1) the defendant promulgated, created, implemented or possessed responsibility for the continued operation of a policy that (2)
caused the complained of constitutional harm, and (3)
acted with the state of mind required to establish the
alleged constitutional deprivation); Butler v. City of
Norman, 992 F.2d 1053, 1055 (10th Cir. 1993) (holding
that a supervisor is not liable under § 1983 unless an
“affirmative link” exists between the constitutional

19a
deprivation and the supervisor’s personal participation).
“For liability under section 1983, direct participation is not necessary. Any official who ‘causes’ a citizen
to be deprived of her constitutional rights can also be
held liable.” Buck v. City of Albuquerque, 549 F.3d
1269, 1279 (10th Cir. 2008) (citing Snell v. Tunnell,
920 F.2d 673, 700 (10th Cir. 1990) ). In terms of causation, the “requisite causal connection is satisfied if the
defendant set in motion a series of events that the defendant knew or reasonably should have known would
cause others to deprive the plaintiff of her constitutional rights.” Id. at 1279–80.
Plaintiff fails to adequately allege an affirmative
link between defendant Brewer’s actions and defendant Small. There is no allegation here that defendant
Small created a policy or was responsible for a policy
of shooting a less-lethal gun from close range. Defendant Small saw Mr. Myers, told defendant Brewer
where he was, and the retreated to the front door with
his dog. Defendant Small did not shoot the gun, and
there is no allegation that he instructed defendant
Brewer to do so or that defendant Brewer was restricted from acting without direction from defendant
Small. None of defendant Small’s actions caused defendant Brewer to shoot the beanbag round from the
shotgun—much less to shoot it from a distance of sixto-eight feet. And there are no allegations that defendant Small had the required state of mind for a constitutional violation. To the contrary, the allegations are
that defendant Small did not think the gunshot would
result in a fatality, and that he was not concerned
when he heard the shot fired.

20a
For these reasons, the court determines that based
on the allegations in plaintiff’s complaint and the videos submitted to the extent that they contradict the
complaint, plaintiff has not adequately alleged the personal participation of defendant Small. He therefore
has not stated a constitutional violation by defendant
Small, and defendant Small is entitled to qualified immunity in his individual capacity.
b. Conspiracy
To adequately allege a conspiracy, plaintiff must
allege “a combination of two or more persons acting in
concert and an allegation of a meeting of the minds, an
agreement among the defendants or a general conspiratorial objective” to violate a constitutional right.
Brooks v. Gaenzle, 614 F.3d 1213, 1227–28 (10th Cir.
2010). Conclusory allegations are insufficient.
Shimomura v. Carlson, 811 F.3d 349, 359 (10th Cir.
2015).
Plaintiff claims that the following allegations support a conspiracy between defendants Small and
Brewer:
• While walking to the house where [Mr. Myers]
was located, Sheriff Small was recorded muttering to Undersheriff Brewer “A little luck and
he’ll just pass out and die.” Doc. 1, ¶ 69.
• After Sheriff Small commanded Steven Myers to
come out of the shed, rather than continue to
command the situation, he ordered Brewer to
come forward and confront [Mr. Myers] with the
shotgun loaded with beanbag rounds. Id. ¶ 70.
• Sheriff Small was just exiting the front door when
the gun blasted behind him. Without skipping a

21a
beat or turning to look, Small told the homeowner on the front porch, “beanbag rounded
him.” Id. ¶ 71.
• Just after the shooting, Sheriff Small was recorded jovially telling another officer “Shot him
with a beanbag round. Hadn’t shot anybody
with it yet.” Id. ¶ 72.2
• As the Coroner asked questions at the scene,
Sheriff Small instructed a deputy “Don’t tell
him everything.” Id. ¶ 73.
(Doc. 24, at 10.)
These allegations do not identify when or how an
agreement was formed, or what conspiratorial objective defendants Small and Brewer agreed to. The comment about Mr. Myers passing out and dying, while
distasteful, suggests no agreement at all to use excessive force on Mr. Myers. And defendant Small’s comments after the shooting indicate only that he knew a
beanbag round had been used—not that he had agreed
ahead of time to use the shotgun in such a manner as
to result on the death of Mr. Myers. The court concludes that any suggestion of an agreement to use excessive force is conclusory. The allegations above
demonstrate only the parallel conduct of law enforcement responding to a call. See Canfield v. Douglas
Cnty., 619 Fed.Appx. 774, 778 (10th Cir. 2015). The
court dismisses the conspiracy claim.
2. Official Capacity Claims
Defendant Small moves to dismiss the claims
against him in his official capacity on the basis of Eleventh Amendment immunity. The Eleventh Amendment provides immunity to unconsenting states and

22a
those acting on their behalf from federal suits for
money damages. U.S. Const. amend. XI; Edelman v.
Jordan, 415 U.S. 651, 663 (1974). It does not, however,
extend immunity to counties, municipalities, or other
local government entities. Steadfast Ins. Co. v. Agric.
In. Co., 507 F.3d 1250, 1253 (10th Cir. 2007) (citation
omitted). In determining whether a particular entity
receives Eleventh Amendment immunity, the court
considers whether the entity is an “arm of the state.”
Mt. Healthy City Sch. Dist. v. Doyle, 429 U.S. 274, 280
(1977). Steadfast sets forth a four-factor test for this
analysis: (1) How is the entity is characterized under
state law? (2) What is the entity’s degree of autonomy
from the state? (3) Where does the entity get its operating funds? (4) Is the entity primarily concerned with
state or local affairs? 507 F.3d at 1253. “If a state entity is more like a political subdivision—such as a
county or city—than it is like an instrumentality of the
state, that entity is not entitled to Eleventh Amendment immunity.” Id.
The Tenth Circuit and a number of courts in the
District of Kansas have held that Kansas sheriffs act
on behalf of the state and are therefore immune from
suit in federal court. See Hunter v. Young, 238
Fed.Appx. 336, 338 (10th Cir. 2007); Broyles v. Marks,
No. 18-3030-SAC, 2018 WL 2321822, at *4 (D. Kan.
May 22, 2018); Self v. Cnty. of Greenwood, No. 121317-JTM, 2013 WL 615652, at *2 (D. Kan. Feb. 19,
2013); Brown v. Kochanowski, No. 07-3062-SAC, 2012
WL 4127959, at *9 n.3 (D. Kan. Sept. 19, 2012), aff’d
513 Fed.Appx. 715 (10th Cir. 2013). But a few District
of Kansas courts have found that sheriffs are not entitled to immunity in Kansas. See, e.g., Trujillo v. City
of Newton, No. 12-2380-JAR, 2013 WL 535747, at *10

23a
(D. Kan. Feb. 12, 2013); Reyes v. Bd. of Cnty. Comm’rs
of Sedgwick Cnty., No. 07-2193-KHV, 2008 WL
2704160, at *7–9 (D. Kan. July 3, 2008).
This court agrees with the analysis in those cases
finding Kansas sheriffs immune under the Eleventh
Amendment. First, the Kansas legislature created the
office of the sheriff. Kan. Stat. Ann. § 19-801a. Sheriffs
in Kansas are required—by statute—“to keep and preserve the peace in their respective counties, and to
quiet and suppress all affrays, riots and unlawful assemblies and insurrections, for which purpose, and for
the service of process in civil or criminal cases, and in
apprehending or securing any person for felony or
breach of the peace, they, and every coroner, may call
to their aid such person or persons of their county as
they may deem necessary.” Kan. Stat. Ann. § 19-813.
And the State of Kansas is responsible for prosecuting
violations of Kansas law. Nielander v. Bd. of Cnty.
Comm’rs, 582 F.3d 1155, 1164 (10th Cir. 2009) (holding that county attorneys act on behalf of the state, not
the county, in Kansas). Second, the board of county
commissioners in Kansas lacks authority to determine
how a county sheriff chooses his employees or expends
budgeted funds. Bd. of Cnty. Comm’rs v. Nielander, 62
P.3d 247, 251 (Kan. 2003). County sheriffs are not subject to local control. Rather,
The sheriff is an independently elected officer
whose office, duties, and authorities are established and delegated by the legislature. The
sheriff is not a subordinate of the board of
county commissioners and neither are the undersheriff or the sheriff’s deputies and assistants. Rather, the sheriff is a state officer whose
duties, powers, and obligations derive directly

24a
from the legislature and are coextensive with
the county board.
Id.
The third and fourth factors are not significant.
Even if the county funds the sheriff’s operations and
the sheriff has relatively limited geographical authority, these factors were the same for county attorneys
in Nielander, and the Tenth Circuit still held that they
were entitled to Eleventh Amendment immunity. 582
F.3d at 1164; see also McMillian v. Monroe Cnty., 520
U.S. 781, 791 (1997) (recognizing that salary source
and geographic limitations are not dispositive of
whether an entity is an arm of the state). Based on
these factors, as well as Hunter v. Young (albeit an unpublished opinion), the court determines that defendant Small is entitled to Eleventh Amendment immunity. The claims against him in his official capacity cannot be brought in federal court. They are dismissed
without prejudice.
3. State Law Claims
Finally, defendant Small asks the court to dismiss
the state law claims against him on three grounds: (1)
he is entitled to Eleventh Amendment Immunity; (2)
there is no allegation of force on the part of defendant
Small; and (3) the court may decline to exercise supplemental jurisdiction over the state law claims. The
court addresses only the first and third arguments below.
a. Eleventh Amendment Immunity
Because the court has determined that defendant
Small is entitled to Eleventh Amendment immunity

25a
for the federal claims against him in his official capacity, the state law claims against in him his official capacity are barred, as well. See Pennhurst State Sch. &
Hosp. v. Halderman, 465 U.S. 89, 121–22 (1984)
(“[N]either pendent jurisdiction nor any other basis of
jurisdiction may override the Eleventh Amendment”).
b. Supplemental Jurisdiction
It is unclear to the court whether plaintiff brings
the state law claims against defendant Small in his official capacity or individual capacity or both. To the extent that plaintiff intended to sue defendant Small in
his individual capacity for wrongful death, the court
declines to exercise supplemental jurisdiction over
that claim. Although there are federal claims remaining in the case, it would be ineffective and inefficient
to split the wrongful death claims between state and
federal court (assuming plaintiff elects to refile the official capacity claims in state court). A state court
would not have the same Eleventh Amendment immunity issues with the official capacity wrongful death
claims, and the court is dismissing these claims without prejudice. The concepts of federalism and comity
support allowing a state court to hear plaintiff’s lawsuit for violations of state wrongful death law—
against defendant Small in all capacities. See Ball v.
Renner, 54 F.3d 664, 669 (10th Cir. 1995). The court
therefore declines to exercise supplemental jurisdiction over any state law claims against defendant Small
in his individual capacity.
4. Count IV—§ 1983 Claim for Loss of Familial
Relationship

26a
As a final note, in a footnote, defendant Small
sought dismissal of Count IV independently of any arguments about qualified immunity or Eleventh
Amendment immunity. Count IV is essentially a federal version of the wrongful death claim. Wrongful
death actions are not actionable under § 1983. Tomme
v. City of Topeka, No. 89-2033-GTV, 1992 WL 81334,
at *3 (D. Kan. Mar. 4, 1992). “[A] § 1983 claim must be
based on the violation of plaintiff’s personal rights and
not the rights of someone else.” Archuleta v. McShan,
897 F.2d 495, 497 (10th Cir. 1990). Plaintiff did not respond to this argument, and the court determines that
Count IV should be dismissed (as to defendant Brewer,
as well).
B. Defendant Brewer’s Motion to Dismiss
1. Individual Capacity Claims
a. Constitutional Violation
To be liable under § 1983, a defendant must engage
in a deliberate deprivation of constitutional rights—
not a negligent deprivation. Woodward v. Worland,
977 F.2d 1392, 1399 (10th Cir. 1992); Moore v. Bd. of
Cnty. Comm’rs, 470 F. Supp. 2d 1237, 1246 (D. Kan.
2007). Officers are afforded some “breathing room” to
make reasonable mistakes while making quick decisions in “tense, uncertain and rapidly evolving situations.” Graham v. Connor, 490 U.S. 386, 397 (1989).
The constitution requires reasonable means—not the
least intrusive means. Fisher v. City of Las Cruces, 584
F.3d 888, 894 (10th Cir. 2009); Jiron v. City of Lakewood, 392 F.3d 410, 414 (10th Cir. 2004). And officers
may take protective action without waiting for the
“glint of steel.” Estate of Larsen v. Murr, 511 F.3d

27a
1255, 1260 (10th Cir. 2008). An officer would be justified in using more force than necessary if he reasonably (but mistakenly) believed that a subject was likely
to fight back. Id. In resolving an excessive force question in the context of qualified immunity on a motion
to dismiss, courts consider and balance three factors:
“(1) the severity of the crime at issue, (2) whether the
suspect poses an immediate threat to the safety of the
officers or others, and (3) whether he is actively resisting arrest or attempting to flee.” Long, 545 Fed.Appx.
at 760 (citing Morris v. Noe, 672 F.3d 1185, 1195 (10th
Cir. 2012), and Graham, 490 U.S. at 396).
Applying these factors to the facts of this case, the
pleaded facts indicate that the crime was not particularly severe. The officers had information that Mr. Myers was drunk and threatening people with a shotgun.
But they also knew that incident had happened over
forty minutes before their arrival and that Mr. Myers
was no longer in the same spot. These facts also implicate the second factor—whether Mr. Myers represented an immediate threat to the safety of anyone.
Based on the information the officers had, at one point,
Mr. Myers had likely represented an immediate
threat. But again, a significant amount of time had
passed before officers arrived on the scene. And third,
whether Mr. Myers was actively resisting arrest or attempting to flee is debatable. He was not obeying the
officers’ directions, he was yelling at them, and it appears that he was moving closer to defendant Brewer
in the doorway, but there is an issue of fact as to
whether he was “resisting arrest” at the time of the
shooting. Cf. Dixon v. Richer, 922 F.2d 1456, 1462
(10th Cir. 1991) (holding that swearing at officers
could reasonably be perceived as resistance). The video

28a
suggests that Mr. Myers was being belligerent, but the
court cannot make out the entire scene or most of the
words with confidence.
The parties spend considerable time debating over
whether use of a shotgun to shoot beanbag pouches
qualifies as “deadly force.” “Deadly force includes force
that the actor uses with the purpose of causing or that
he knows to create a substantial risk of causing death
or serious bodily harm, including purposefully firing a
firearm in the direction of another person.” King v.
Hill, 615 Fed.Appx. 470, 474 (10th Cir. 2015); see also
Tenorio v. Pitzer, No. CV 12-01295 MCA/KBM, 2014
WL 11429062, at *4 (D.N.M. May 28, 2014), aff’d, 802
F.3d 1160 (10th Cir. 2015) (“Due to the limited space
within the living room, the bean bag rounds were not
a non-lethal option.”). “Whether an officer acted reasonably in using deadly force is ‘heavily fact dependent.’ ” Olsen v. Layton Hills Mall, 312 F.3d 1304, 1314
(10th Cir. 2002) (quoting Romero v. Bd. of Cnty.
Comm’rs, 60 F.3d 702, 705 n.5 (10th Cir. 1995) ).
The court does not believe that the characterization
of the type of force defendant Brewer used is a determining factor as to whether plaintiff has adequately
alleged a constitutional violation. Regardless of
whether defendant Brewer intended for the beanbag
pouch to be deadly, the unfortunate fact is that it was.
Independently of whether this constituted “deadly
force,” there is a question of whether it was excessive
for the situation. The court determines that plaintiff
has adequately alleged a constitutional violation.
b. Clearly Established
To show that a law is “clearly established,” a plaintiff must identify pre-existing precedent that places

29a
the “constitutional question beyond debate.” Yeasin v.
Durham, 719 Fed.Appx. 844, 850 (10th Cir. 2018)
(quoting Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
). A plaintiff must identify “a Supreme Court or Tenth
Circuit decision on point, or the clearly established
weight of authority from other circuits must have
found the law to be as the plaintiff maintains.” Cortez
v. McCauley, 478 F.3d 1108, 1114–15 (10th Cir. 2007)
(citation omitted). The relevant precedent need not be
directly on point, but the plaintiff “must do more than
cite case law announcing a legal rule ‘at a high level of
generality.’ ” Yeasin, 719 Fed.Appx. at 850. The precedent must be particularized to the facts of this case,
id., making it sufficiently clear such that every reasonable official would have known that the defendant’s actions would violate the plaintiff’s rights, Reichle v.
Howards, 566 U.S. 658, 664 (2012). But the Tenth Circuit has counseled that “[w]e cannot find qualified immunity wherever we have a new fact pattern.” Casey
v. City of Fed. Heights, 509 F.3d 1278, 1284 (10th Cir.
2007). Casey applied a “sliding scale” concept to evaluating whether a right is clearly established—the more
egregious the conduct, the less specificity is required
from prior case law. This sliding scale test has been
called into question recently, see McCoy v. Meyers, 887
F.3d 1034, 1053 n.22 (10th Cir. 2018), but the Tenth
Circuit has not yet decided that it conflicts with Supreme Court authority. If force is clearly unjustified
based on the Graham factors, then the court may conclude that a right is clearly established, even in the
absence of similar prior cases. Morris v. Noe, 672 F.3d
1185, 1197–98 (10th Cir. 2012).
The parties disagree over the definition of the right
that must have been clearly established for defendant

30a
Brewer to lose the protection of qualified immunity.
Plaintiff urges the court to apply the general principle
that “[a] police officer may not seize an unarmed, nondangerous suspect by shooting him dead.” Tennessee v.
Garner, 471 U.S. 1, 11 (1985). Defendant Brewer, on
the other hand, argues that the right is an alleged
right not to be shot with a beanbag gun when the suspect is advancing on the officer, yelling belligerently,
and refusing to comply with directions. The court determines that the appropriate definition is somewhere
between the two. It is the right not to be shot with a
high-speed projectile (even a less-lethal one) at close
range when unarmed and making no apparent move
to attack an officer or bystander. In this situation, the
Graham factors indicate that the force was unjustified—even if there is not a Tenth Circuit case that has
said that shooting a beanbag pouch out of a shotgun,
at very close range, at a non-threatening suspect is unreasonable. In a similar situation, the Tenth Circuit
cited an Eleventh Circuit case, Thornton v. City of Macon, 132 F.3d 1395, 1400 (11th Cir. 1998) (holding that
“officers were not justified in using any force, and a
reasonable officer thus would have recognized that the
force was excessive” when the arrestees had not committed a serious crime, did not pose an immediate
threat, and were not actively resisting arrest), for the
principle that a reasonable officer would know based
on his training that such force was not justified. Morris, 672 F.3d at 1198.
Taking plaintiff’s allegations as true, the court determines that plaintiff has adequately alleged that defendant Brewer violated this clearly established right.
The video does not present a clear contradiction to
plaintiff’s allegations on this issue. While it appears

31a
that plaintiff moved forward from the shed, the court
cannot make other determinations about the nature of
his movement and what it reasonably conveyed to defendant Brewer. The court cannot make factual findings on the scene based on the video at this stage of the
proceedings. Defendant Brewer is not entitled to qualified immunity at this time.
2. Official Capacity Claims
For the same reasons given above with respect to
the claims against defendant Small in his official capacity, the official capacity claims against defendant
Brewer are barred by the Eleventh Amendment.
3. State Law Claims
For the same reasons given above with respect to
the state law claims against defendant Small, the
court dismisses the state law claims against defendant
Brewer without prejudice.
IT IS THEREFORE ORDERED that Sheriff
Small’s Motion to Dismiss (Doc. 10) is granted. Defendant Small is dismissed from the case.
IT IS FURTHER ORDERED that Virgil Brewer’s
Motion (Doc. 17) is granted in part and denied in part.

32a

Appendix C
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
KRISTINA MYERS, individually, and as administrator of the Estate of Steve P. Myers, and as natural parent and legal guardian of K.D.M., C.F.M. and K.J.M.,
minors, Plaintiff - Appellee,
v.
VIRGIL BREWER, individually and in his official capacity as Undersheriff of Barber County, Kansas, Defendant - Appellant,
and
LONNIE SMALL, individually and in his official capacity as Sheriff of Barber County, Kansas, Defendant.
No. 18-3145
ORDER
FILED August 22, 2019
Before BRISCOE, BALDOCK, and BACHARACH,
Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular active service. As no member of the panel and no judge
in regular active service. As no member of the panel
and no judge in regular active service on the court requested that the court be polled, that petition is also
denied.
Entered for the Court

33a
ELISABETH A. SHUMAKER, Clerk

